U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


SELECTED FINANCIAL ACTIVITIES OF THE
  PINON COMMUNITY SCHOOL BOARD

             REPORT NO. 95-I-416
                JANUARY 1995
           United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                 Washington, D.C. 20240




MEMORANDUM

TO:                          The Secretary

FROM:                        Acting Inspector General

SUBJECT. SUMMARY:            Final Audit Report for Your Information - “Selected
                             Financial Activities of the Pinon Community School
                             Board” (No. 95-1-416)

DISCUSSION: We concluded that the Pinon Community School Board complied
with Federal regulations regarding the student count process for determining annual
funding levels for dormitory operations. However, the funding process established
by these regulations permitted the School Board to receive funding for its dormitory
students that was based on a student count that exceeded student attendance during
the subsequent school year and that exceeded the stated capacity. This funding
process permitted school administrators to encourage children to stay in the Pinon
Community School dormitory while attending special activities at Pinon during count
week. As a result, during school years 1992-1993 and 1993-1994, the School Board
received $568,551 in funding for students who did not reside in the dormitory during
the school year, which included $253,339 for housing students who were in excess
of the dormitory’s capacity. We also found that because of inadequate control over
its budgets and expenditures, the School Board incurred, from July 1992 through
February 1994, a funding shortfall of at least $62,647 on the contract for design of
the new dormitory and, from July 1992 through December 1993, incorrectly applied
$64,546 of school operations funds for School Board administration.

We recommended that the Office of Indian Education continue to consult with
interested parties to refine the process used to determine the amount of funds
distributed to schools and that the Bureau of Indian Affairs ensure that the School
Board complies with contract and grant standards for administrative and financial
management systems and resolves the monetary issues relating to funding.

Based on the Bureau’s response to the draft report, we considered three of the
report’s six recommendations resolved. We have requested the Bureau to respond




Prepared by: Marvin Pierce
Extension: 208-4252
to the three unresolved recommendations, two of which have been revised based on
the Bureau’s response.




Attachment             .
                                                                   C-IN-BIA-005-94


           United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                 Headquarters Audits
                                1550 Wilson Boulevard
                                       Suite 401
                                 Arlington, VA 22209

Memorandum

To:        Assistant Secretary for Indian Affairs

From:      Acting Assistant Inspector General for Audits

Subject:   Final Audit Report on Selected Financial Activities of the Pinon
           Community School Board (No. 95-I-416)

This report presents the results of our review of selected financial activities of the
Pinon Community School Board, Inc. The School Board operates a kindergarten
and dormitory for the Navajo Nation in Pinon, Arizona. This audit was requested
by the Bureau of Indian Affairs Navajo Area Office because of possible
mismanagement of Federal contract funds by the School Board. Accordingly, our
audit objective was to determine whether contract and grant funds were used
efficiently and economically and in accordance with applicable requirements. We
expanded the scope of our audit to include an evaluation of the student count of
dormitory students (used as a basis for funding) because of questionable practices
used by the School Board in developing the counts.

Our review disclosed that the Bureau approved a funding level based on an
inaccurate dormitory student count. Consequently, during July 1992 through
January 1994, the Pinon Community School Board received $568,551 in funding for
students who did not actually reside in the dormitory during the school years. In
addition, the School Board experienced a financial funding shortfall of at least
$62,647 for a dormitory construction project and misapplied education formula funds
totaling $64,546 for School Board activities.

To correct the identified problems, we recommended that (1) the Office of Indian
Education continue to consult with interested parties to refine the process used to
determine the amount of funds distributed to schools, (2) the Bureau ensure that
the School Board complies with contract and grant standards for administrative and
financial management systems, and (3) the Navajo Area Contracting Officer resolve
the monetary issues relating to Indian School Equalization Program funding and
administrative cost grant funding.

In its September 8, 1994, response (Appendix 3) to our draft report, the Bureau
disagreed with the recommendations concerning student count, School Board costs,
and lobbying costs (Nos. A.l, B.3, and B.4, respectively). Based on the response,
we have revised Recommendations A. 1 and B.3 and have requested the Bureau to
provide a response to the revised recommendations and to reconsider its response
to Recommendation B.4, which is unresolved. The Bureau generally agreed with the
remaining recommendations. In addition, the School Board provided its comments
to the Bureau on August 22, 1994 (Attachment to Appendix 3). Comments from
both the Bureau and the School Board were considered and incorporated into the
report as appropriate.

In accordance with the Departmental Manual (360 DM 5.3), we are requesting a
response to this report by March 24, 1995. The response should provide the
information requested in Appendix 7.

The legislation, as amended, creating the Office of Inspector General requires
semiannual reporting to the Congress on all audit reports issued, the monetary
impact of audit findings (Appendix 1), actions taken to implement audit
recommendations, and identification of each significant recommendation on which
corrective action has not been taken.
                                        CONTENTS
                                                                                                 Page

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

        BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        1
        OBJECTIVE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . .               1
        PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . .                  2

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . .                          3

        A. DORMITORY FUNDING . . . . . . . . . . . . . . . . . . . . . . . . . .                  3
        B. FINANCIAL MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . .                     7

APPENDICES

        1. CLASSIFICATION OF MONETARY AMOUNTS . . . . . . . .                                    14
        2. DISTRIBUTION OF LOBBYING SERVICES
           COSTS AMONG MEMBER SCHOOLS OF THE
           ASSOCIATION OF NAVAJO COMMUNITY
           CONTROLLED SCHOOL BOARDS, INC. . . . . . . . . . . . . . .                            15
        3. BUREAU OF INDIAN AFFAIRS RESPONSE TO
            THE DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . .               16
        4. OFFICE OF THE SOLICITOR MEMORANDUM
            (September 30, 1994) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       35
        5. OFFICE OF THE SOLICITOR MEMORANDUM
            (May 12, 1994) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   38
        6. OFFICE OF THE SOLICITOR MEMORANDUM
            (May 20, 1994) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   41
        7. STATUS OF AUDIT REPORT RECOMMENDATIONS . . .                                          42
                             INTRODUCTION

BACKGROUND

The Pinon Community School Board is a private nonprofit corporation that operates
a dormitory and a kindergarten for the Navajo Nation in Pinon, Arizona. The
purpose of the dormitory is to provide housing for students who reside in isolated
areas and/or who face social adjustment, transportation, and school attendance
problems to facilitate a successful public school education.

During July 1992 through February 1994, the School Board received approximately
$2.65 million for operation of the dormitory and kindergarten programs from the
Bureau of Indian Affairs. The funds were provided under the authority of Public
Law 93-638, as amended, the Indian Self-Determination and Education Assistance
Act of 1975, and Public Law 95-561, as amended, the Education Amendments of
1978.

In addition to funds for operations, the Bureau, on July 13, 1992, awarded a Public
Law 93-638 contract to the School Board for the design and construction of a new
$16.6 million dormitory in the Pinon community. As of February 1994, the School
Board had received about $1.2 million under the contract and had expended about
$935,000. This new dormitory is intended to replace the current facility.

The Code of Federal Regulations (25 CFR 271 and 276) requires contract and grant
awardees to establish sound management practices when administering programs
and to maintain a system of record keeping that will provide accurate, current, and
complete disclosure of financial status of Federal assistance.

Title XI of the Education Amendments of 1978 (Public Law 95-561) required the
Bureau to allocate funds on a pro rata basis according to a formula that identified
the funding necessary to sustain each school.       The formula developed by the
Bureau, called the Indian School Equalization Formula, is based primarily on an
“average daily membership,” which is an average of the actual membership in the
school or dormitory. In order to be counted as members, students must be listed
on the current roll of the school or dormitory during a specified count week, not
listed as enrolled in any other school during the same period, and be in actual
attendance at the school or dormitory at least 1 full day during the specified count
week.

OBJECTIVE AND SCOPE

The audit objective was to determine whether the Pinon Community School Board
used contract and grant funds efficiently and economically and in accordance with
applicable requirements. During our audit survey, we found deficiencies in the
student count process used to determine funding for the dormitory. Therefore, we
revised our objective to include an evaluation of the student count methodology.

                                         1
We conducted the audit during December 1993 through March 1994 at the Pinon
Community School. The audit focused on selected financial activities of the Pinon
Community School Board during July 1992 through February 1994 and included a
review of contract and grant agreements, general ledger accounts, bank statements,
canceled checks, vendor invoices, travel vouchers, and other related documents.

Our audit was made in accordance with the “Government Auditing Standards,”
issued by the Comptroller General of the United States. Accordingly, we included
such tests of records and other auditing procedures that were considered necessary
under the circumstances. As part of our audit, we evaluated the system of internal
controls to the extent that we considered necessary to accomplish our objective. We
identified internal control weaknesses in the areas of budget and cash management.
The internal control weaknesses identified are discussed in the Findings and
Recommendations section of this report. If implemented, the recommendations
should improve the internal controls.

We reviewed the Secretary’s Annual Statement and Report to the President and the
Congress for fiscal year 1993, required by the Federal Managers’ Financial Integrity
Act of 1982, to determine whether any reported weaknesses were within the
objective and scope of our audit. The report identified as a material control
weakness the inability of the Bureau’s Office of Indian Education Programs to
monitor and evaluate education and training. Specifically, policies, procedures, and
guidelines were not current; standards had not been completed; and the Office did
not effectively monitor and evaluate policies and procedures. Corrective actions
were planned for completion by January 1994. However, as of April 1994, four of
the seven corrective actions had not been completed.

PRIOR AUDIT COVERAGE

Neither the Office of Inspector General nor the General Accounting Office has
issued a report in the last 5 years concerning financial or administrative issues of the
Pinon Community School. A financial audit as required by the Single Audit Act of
1984 had not been performed for the period that we reviewed.
             FINDINGS AND RECOMMENDATIONS

A. DORMITORY FUNDING

The Pinon Community School Board received funding for its dormitory students
based on a student count that was in excess of the average student attendance and
that exceeded the stated capacity of the dormitory. Specifically, the School Board
received funding for 141 dormitory residents during school year 1992-1993 and for
188 residents during school year 1993-1994, whereas an average of 74 and 100
students, respectively, actually stayed in the dormitory during these time frames.
Also, the number of residents claimed by the School Board exceeded the 131
resident capacity of the dormitory. This condition occurred because the School
administrators encouraged children (students) to stay in the dormitory while
attending special activities at Pinon during count week. The Code of Federal
Regulations does not preclude this activity. In addressing funding for students, the
Code (25 CFR 39) requires that students be in actual attendance at the dormitory
for 1 full day during a designated count week. As a result, during school years 1992-
1993 and 1993-1994, the School Board received $230,559 and $337,992, respectively,
in funding for students who did not reside in the dormitory during the school year,
which included $34,412 and $218,927, respectively, for housing students in excess of
the dormitory’s capacity. Furthermore, the Bureau was aware that the stated
dormitory enrollment exceeded the dormitory’s capacity but did not adjust the
funding for the dormitory.

Student Count

During the count week for school year 1993-1994, more children than usual were at
the dormitory attending special events. According to the Pinon Community School
Board Business Manager, the school year 1993-1994 dormitory student count was
“greatly increased” over that of the previous year because the School Board had the
special events announced on the radio and had four persons actively recruit students
to be in the dormitory during the count week. In addition, the Dormitory Manager
stated that the dormitory provided special activities and games to attract families to
Pinon during the count week, which was also Pinon Indian Week, and encouraged
children to stay in the dormitory. Pinon Indian Week included a pow-wow, cultural
events, and baking contests. Even dormitory staff were encouraged to have their
children stay in the dormitory during the count week. We identified 10 children of
staff members and one board member who were listed on the student enrollment
sheet and were included in the count for Program funding. However, only 2 of the
10 students stayed in the dormitory after the count week.

The actions of the School Board were not in violation of the Code of Federal
Regulations, which requires only that students be in actual attendance at the
dormitory for at least 1 full day during the count week in order to be considered
enrolled. However, the dormitory enrollment during count week was not
representative of actual attendance throughout the year.

                                          3
Funding Process

The funding process established by the Federal regulations permitted the School
Board to receive funding for more students than it actually housed in the dormitory.
During school year 1993-1994 (July 1993 through June 1994), the Bureau funded the
School Board for 188 dormitory students. From the first day of classes (August 23,
1993) through the last day of our review (March 23, 1994), an average of only 100
students were residing in the dormitory. Consequently, the School Board qualified
for and received funding totaling $722,074 rather than funding totaling $384,082
based on the dormitory’s housing 100 students. Similarly, during school year 1992-
1993 (July 1992 through June 1993), the School Board received funding for 141
dormitory students; however, an average of only 74 students resided in the
dormitory. As a result, the School Board qualified for and received funding totaling
$485,207 rather than funding totaling $254,648 based on the dormitory’s housing 74
students.

Program funds obtained but not expended by the School Board were carried forward
to the next school year. We did not attempt to quantify the amount of funds to be
carried forward to the 1994-1995 school year because the School Board had not had
its annual audit performed for the year ending June 30, 1993; had not maintained
a check register; and had not performed bank reconciliations for over a year.

Bureau Oversight

The Bureau’s oversight of the School’s funding was not adequate. Section 102 of
the contract between the Bureau and the Pinon Community School Board, Inc.,
stated that the authorized capacity of the dormitory was 131. Bureau officials stated
that the funding should have been limited to the authorized capacity. However, the
School Board received funding totaling $253,339 ($34,412 for school year 1992-1993
and $218,927 for school year 1993-1994) for dormitory students in excess of the
authorized capacity.

We found that the Bureau did not arbitrarily establish a dormitory capacity of 131
students but was considering the safety of the children by limiting the capacity.
Although the Chinle Agency facilities safety officer initially advised the School
Board that the dormitory could accommodate 212 students, the Acting Navajo Area
Director, in an October 1, 1993, memorandum to the Chinle Agency Superintendent
for Education, stated that authorizing 212 dormitory students would result in
“overcrowded conditions” at the Pinon Community School. Furthermore, on
October 14, 1993, the Chinle Agency Superintendent for Education issued a letter
to the School Board reaffirming this position. However, the School Board did not
address the Bureau’s concerns for the overcrowding, and it certified 190 students
during the last week of October 1993. In addition, the Director, Office of Indian
Education Programs, issued a December 3, 1993, letter to the School Board stating
that the School “is in violation of the contract” and the increase over the authorized
capacity of 131 created a “fire safety hazard.” The letter further stated:

                                          4
      In a meeting on October 19, 1993, with the school officials, the
      indication of additional fire drills to alleviate a potential hazard is
      insufficient to assure the safety of students. In fact the school
      officials cannot guarantee or assure that lives will not be lost and that
      the situation could not become life threatening.

Recommendations

We recommend that the Assistant Secretary for Indian Affairs:

       1. Direct the Director, Office of Indian Education Programs, to continue to
consult with tribes and members of the Congress to refine the process used to
                                                                  -
determine the amount of funds distributed to contract schools.

      2. Quantify and resolve the excess funds at Pinon Community School.

Bureau of Indian Affairs Response

The September 8, 1994, response (Appendix 3) from the Assistant Secretary for
Indian ‘Affairs nonconcurred with ‘Recommendation 1 and concurred ‘with
Recommendation 2.

      Recommendation 1. Recommendation 1 in our draft report stated that the
Bureau should develop and implement policies and procedures to ensure that the
Pinon dormitory is funded only for the actual number of students residing in the
dormitory. However, the Bureau stated that the recommendation was contrary to
the Code of Federal Regulations (25 CFR 39.32), which states that funding is to be
based on attendance during a specified count week.

       Recommendation 2. The Bureau stated that the disposition of any
unexpended balances will be determined as part of the closeout process identified
in the contract between the Bureau and the Pinon Community School Board.

Office of Inspector General Comments

The Bureau’s response was sufficient for us to consider Recommendation 2 resolved
but not implemented. Accordingly, the recommendation will be referred to the
Assistant Secretary for Policy, Management and Budget for tracking of
implementation. Further, based on the Bureau’s response, we have changed
Recommendation 1. Therefore, the Bureau is requested to respond to the revised
recommendation (see Appendix 7).

Regarding Recommendation 1, the Bureau said that it was aware of the
shortcomings in the current methodology of funding distribution and that it had
initiated actions to change the process. The Bureau noted that it had “consulted
[with tribes] on two separate occasions on proposed changes to count week and on

                                         5
suggestions that more than one count week be used.” The Bureau further stated
that during six other consultations concerning the Indian School Equalization
Program, changes to count week were discussed and language was proposed with the
fiscal year 1995 budget request which would have based funding on prior year
student counts. The Bureau noted, however, that there was “no consensus” in this
area among the tribes and the school boards and that both the U.S. House of
Representatives and the U.S. Senate took “substantially different positions” on the
proposed budget language.
B. FINANCIAL MANAGEMENT

The Pinon Community School Board did not effectively manage and account for
contract funds. Specifically, the School Board did not ensure that it adhered to its
budgets or that its expenditures were allowable and reasonable. The Code of
Federal Regulations (25 CFR 276.7) establishes the standards for administrative and
financial management systems and requires effective control and accountability over
funds. However, the School Board and administrative officials did not implement
fiscal and management controls over budgets and expenditures. Furthermore, the
Bureau of Indian Affairs did not monitor School Board financial activities to ensure
that expenditures were allowable and within spending limitations. As a result,
during July 1992 through February 1994, the School Board incurred a funding
shortfall of at least $62,647 on the contract for design of the new dormitory, and
during July 1992 through December 1993, the School Board misapplied education
formula funds totaling $64,546 for School Board activities.

Dormitory Design

The School Board exceeded the contract amount for architectural and engineering
design work on the new dormitory project. The Code of Federal Regulations
(25 CFR 271.46) requires contractors to maintain a record-keeping system that will
provide accurate, current, and complete disclosure of financial status and correlation
with budgets or allowable cost schedules. However, the administrative staff did not
post expenditures for school year 1992-1993 (ending June 30, 1993) and the first half
of school year 1993-1994 to the general ledger until February 1994. Furthermore,
the School Board had not submitted expenditure documentation to the Bureau to
support construction drawdowns during 1992 and 1993, and as of February 22, 1994,
it had not submitted an annual Financial Status Report, due on September 30, 1993,
to show the funding status for the contract.

Our review disclosed that as of February 1994, the School Board had only $277,560
remaining in contract funds. However, the remaining liability for fixed labor fees
related to architectural and engineering services was $340,207, which resulted in a
shortfall of $62,647. Furthermore, if the School Board incurs all the remaining
expenditures for non-design-related architectural and engineering fees as stated in
the contract, the remaining liability would increase by an additional $18,438. The
shortfalls are attributed to expenditures in excess of budgets for travel, stipends,
legal fees, and telephone calls. For example, during February 1992 through June
1993, School Board staff and one School Board member used a chartered flight
service for seven trips to Albuquerque, New Mexico, and Phoenix, Arizona, to
attend meetings. The total cost of the flights was $8,108. Our review disclosed that
these meetings were planned in advance and therefore may not have required the
use of chartered flights. Furthermore, both Albuquerque and Phoenix are within
a 5-hour drive from Pinon, and each round-trip mileage cost is about $150.
Commercial airline rates to these locations are also about $150 for a round-trip.
School Board Expenses

The School Board inappropriately used Indian School Equalization Program funds
to pay for School Board activities. The United States Code (25 U.S.C. 2008 (c) (2)
(C)) limits costs for school board activities to the greater of $5,000 or 1 percent of
the Indian School Equalization Program funding, not to exceed $15,000.
Furthermore, the Department’s Regional Solicitor in Albuquerque concluded in a
September 30, 1994, Opinion that Pinon Community School, as a contract school,
was not authorized to use education formula funds (Indian School Equalization
Program funds) to fund school board activities but should instead use administrative
cost grant funds. The opinion also stated, “If such misapplication of the funds is
innocent the School should reimburse the government from its administrative cost
grant funds as authorized by 25 U.S.C. subsection 450c(d)” (see Appendix 4).

During school year 1992-1993, the School Board received a total of $778,800 in
Indian School Equalization Program funding, of which the School Board spent
$38,693 for School Board activities and travel. In addition, we found that as of
December 31, 1993, the School Board had already spent $25,853 of school year
1993-1994 Program funds for its activities. Our review disclosed that the Pinon
Community School was authorized administrative cost grant funds totaling $259,942
during school year 1992-1993. (This included a $40,540 carryover from school year
1991-1992.) However, the School Board did not include its activities in the budget
for the administrative cost grant; therefore, no funds were available from the
administrative cost grant for School Board activities. We believe that the Board
thought that it could use Program funds for these expenses and that therefore the
use of Indian School Equalization Program funds for School Board activities was
unintentional.

Most of these School Board expenditures consisted of stipends and travel. For
example, 15 School Board meetings were scheduled for the 1992-1993 school year.
However, the School Board President received $4,425 in stipends for 59 meetings
during the school year. Furthermore, some of these stipends were used to pay for
meetings and conferences that may have been unnecessary or could have been
accomplished at a lower cost. For example:

        - During March 29 through April 1, 1993, the Executive Director, the
Business Manager, and two School Board members traveled to Washington, D. C.,
to attend hearings on the Bureau’s education appropriations. The travelers stayed
in three hotel rooms at a cost of $279 per room per night and incurred hotel charges
totaling $3,166 for the trip.

        - During April 14-18, 1993, the Executive Director, the Business Manager, all
four School Board members, and two other employees traveled to Honolulu, Hawaii,
to attend the annual meeting of the Association of Community Tribal Schools. The
Pinon Community School paid a total of $7,648 for travel costs associated with this
trip.


                                          8
        - During July 8-10, 1993, the Executive Director, the Business Manager, all
four School Board members, and two other employees attended a School Board
retreat in Las Vegas, Nevada. The hotel bill for this retreat was $1,985, which
included a $250 buffet dinner and $309 for catering services. For the three days,
School Board members also received a total of $550 for mileage, $476 for per diem,
and $900 for stipends. The purpose of the retreat was to develop the School’s
personnel policies and procedures.

We discussed these travel issues with the Bureau’s Navajo Area Contracting Officer,
who, on January 20, 1994, sent a letter to the School Board requiring it to obtain
prior approval from the Bureau for all travel off reservation except to traditional
border towns such as Flagstaff, Arizona, and Gallup, New Mexico. However, the
School Board continued to incur off reservation travel costs. For example, on
February 12-17, 1994, the School Board President and the Dormitory Manager
attended the National Association for Year-Round Education Conference in San
Diego, California. We questioned the need for their attending this conference, since
Pinon Community School is primarily a dormitory and provides only kindergarten
classes. Furthermore, no school districts on the Navajo Reservation have adopted
year-round schooling.

Lobbying Costs

Our review disclosed that in September 1992, the Association of Navajo Community
Controlled School Boards, Inc., of which Pinon Community School Board is a
paying member, voted to share the costs of drafting legislative amendments to the
bill for Reauthorization of Elementary and Secondary Education. The total cost of
these legal services for 1993 was $30,000, of which the Pinon Community School
Board’s share was $1,589. In addition, during August 1992 through June 1993, the
School Board used administrative cost grant funds to pay $533 in legislative lobbying
costs related to funding for Indian education and a new Pinon School dormitory
construction project.

Title 25, Part 276, of the Code of Federal Regulations, entitled “Principles for
Determining Costs Applicable to Grants,” does not specifically disallow lobbying
costs. However, this provision states that the costs of membership in civic, business,
technical, and professional organizations are allowable if the expenditure is@ for
membership in an organization that devotes a substantial part of its activities to
influencing legislation. This provision also states that costs “must be necessary and
reasonable for proper and efficient administration of the grant program” and
“conform to any limitations or exclusions set forth in these principles, Federal laws,
or other governing limitations as to types or amounts of cost items.”

In response to our request, the Department’s Regional Solicitor in Albuquerque
concluded in a May 12, 1994, opinion that the lobbying costs were unrelated to
management of Pinon’s educational program and were therefore unallowable
(Appendix 5). The Solicitor stated:


                                          9
       Lobbying for new laws is not in furtherance of the program contracted
       but seeks to change the program. Such lobbying is outside the scope
       of administrative support of the contracted functions and is outside of
       the prudent management of the program.

On May 20, 1994, the Solicitor reaffirmed this opinion based on the Interior
Appropriations Acts for fiscal years 1989 through 1994 (see Appendix 6).
Specifically, the acts forbid the lobbying activities engaged in by Pinon Community
School.

Fiscal and Management Controls

The Public Law 93-638 contract between the Bureau and the School Board requires
the latter to maintain an accounting system that will provide accurate, current, and
complete disclosure of financial status. Furthermore, the position description for
the School Board’s Business Manager requires the Business Manager to reconcile
bank statements; administer a budget control system; and provide accounting
services essential to the preparation, administration, supervision, and control of the
budget.     However, our review disclosed that the Pinon Community School
administration had not maintained a check register, reconciled bank statements since
February 1993, performed an analysis of budgeted and actual expenditures,
completed an annual audit for the period July 1992 through June 1993, or ensured
that travel policies and procedures were followed. Furthermore, quarterly financial
status reports were not submitted to the Bureau in a timely manner. Some reports
were over 6 months late, resulting in a temporary suspension of funding by the
Bureau. These problems were compounded in that the School Board maintained
only one bank account for all Federally funded programs. Consequently, the
Business Manager had difficulty in determining what funds were available for each
program during the school year. In addition, our review disclosed that from
February 3 through September 1, 1993, the Pinon Community School incurred $525
of bank overdraft charges.

The Policies and Procedures Manual for the Pinon Community School requires
employees to submit a travel expense form, which details expenses incurred within
14 days after travel is completed. However, the Business Manager told us that the
Business Office does not require travelers to prepare a travel expense form upon
completion of travel to offset travel advances. We believe that this control weakness
contributed to employees at the Pinon Community School not complying with travel
policies and procedures. For example, on November 4, 1993, the Business Office
issued an employee a $78 travel advance to attend a seminar in Albuquerque on
November 18, 1993. However, the employee did not attend the seminar and was not
required to submit a travel expense form to the Business Office. Furthermore, on
March 1, 1993, the Business Office issued the same employee a $486 travel advance
for lodging at a seminar in Las Vegas. However, the employee said that the check
had been misplaced. Therefore, the Business Office issued the employee a new
check on March 8, 1993, which was cashed, but did not stop payment on the


                                          10
misplaced check. The employee cashed the previously misplaced check on
November 1, 1993. As of May 2, the employee was in the process of repaying the
$486 and the $78. Furthermore, at the May 16, 1994, exit conference, the Business
Manager stated that he had dismissed the employee.

Recommendations

We recommend that the Assistant Secretary for Indian Affairs:

       1. Direct the Chinle Agency Superintendent for Education and the Facilities
Management and Construction Center Contracting Officer for the dormitory design
and construction contract to review School Board expenditures and budgets
periodically to ensure that School Board expenditures, specifically travel and
stipends, are reasonable, justified, and within spending limitations.

       2. Ensure that the School Board complies with contract and grant standards
for administrative and financial management systems. Specifically, the School Board
should maintain current accounting records, perform a financial audit for school
year 1992-1993, maintain a check register, reconcile bank statements, administer a
budget control system for each program, and require travelers to prepare travel
expense forms upon completion of travel.

      3. Resolve the $64,546 of misapplied funds for School Board administrative
expenditures.

        4. Require the Pinon Community School Board to repay the Government
for the $2,122 of unallowable lobbying costs (distribution of the $30,000 in lobbying
costs among member schools of the Association of Navajo Community Controlled
School Boards, Inc., is presented in Appendix 2). The Bureau should also
determine whether recovery of funds from the other member schools is appropriate.

Bureau of Indian Affairs Response

The September 8, 1994, response (Appendix 3) from the Assistant Secretary for
Indian Affairs concurred with Recommendation 1, partially concurred with
Recommendation 2, and nonconcurred with Recommendations 3 and 4.

       Recommendation 1. The Bureau cited Section 281 of the contract for the
operation of the dormitory and kindergarten, which describes those travel expenses
that are allowed. The Bureau also stated that it will review all costs related to the
Pinon dormitory construction contract to ensure that the expenditures are
reasonable, justified, and allocable to the contract.

       Recommendation 2.           The Bureau partially concurred with the
recommendation, stating that many tribes and tribal organizations with whom it has
contracts have “internal control problems” similar to those experienced by the Pinon

                                         11
Community School Board. The Bureau noted that the action the Office of
Inspector General “normally recommends” is to treat these organizations as “high
risk” grantees rather than to decline to renew the contracts. However, the Bureau
stated that our office had not “formally notified” the Bureau that the Pinon
Community School Board should be considered a high risk grantee.

        Recommendation 3. The Bureau did not concur with the recommendation,
stating that the limitation found in the United States Code (25 USC 2008 (c)(2)(C))
applies only to Bureau-operated schools, not to contract schools,

       Recommendation 4. The Bureau did not concur with this recommendation,
stating that there is a need for consistent treatment regarding the allowability of
lobbying costs.

Office of Inspector General Comments

The Bureau’s response was sufficient for us to consider Recommendation 2 resolved
and implemented and Recommendation 1 resolved but not implemented.
Accordingly, the unimplemented recommendation will be referred to the Assistant
Secretary for Policy, Management and Budget for tracking of implementation.
However, based on the Bureau’s response, Recommendations 3 and 4 are
unresolved (see Appendix 7).

       Recommendation 3. Regarding limitations on school board expenses, the
Department’s Regional Solicitor’s Office in Albuquerque concluded in a September
30, 1994, opinion (Appendix 4) that Pinon Community School, as a contract school,
is not authorized to use education formula funds (Indian School Equalization
Program funds) to fund school board activities. The opinion also stated that the
School should use its administrative cost grant funds to reimburse the misapplied
education formula funds to the Government.              Therefore, we changed
Recommendation 3 from our draft report to reflect the Solicitor’s opinion, and the
Bureau is requested to provide a response to the new recommendation,

        Recommendation 4. As noted in the May 20, 1994, Regional Solicitor’s
opinion (Appendix 6), the Interior Appropriations Acts for fiscal years 1989 through
1994 prohibit lobbying activities. Therefore, the Bureau is requested to reconsider
its response to this recommendation.

Pinon Community School Board Comments

The August 22, 1994, response (Attachment to Appendix 3) from the President,
Pinon Community School, Inc., disagreed with our conclusion that School Board
expenditures for travel and stipends included trips and meetings which appeared to
be unreasonable and unnecessary and that lobbying costs were unallowable. The
School Board stated that “little, if any, action on its project gets done” unless
representatives of the school “physically” visit the Bureau. The School Board also

                                         12
stated that charter air transportation was allowed in the contract because of the
School’s remote location. Further, it was “essential” that the Acting Executive
Director’s time away from the dormitory “be minimized.” Regarding our examples
of School Board travel, the School Board stated that accommodations in
Washington, D. C., “are scarce” and “more expensive than anyone would like”; that
the Association of Community Tribal Schools, not the School Board, selected
Honolulu as the location of the annual meeting; and that holding the School Board
retreat in Las Vegas did not violate any law, regulation, or cost principle and was
held to coincide with the Association of Navajo Community Controlled School
Boards Executive Board meeting. Finally, regarding the lobbying costs, the School
Board stated that its share of the costs of drafting legislation should be categorized
as “technical assistance” and that the use of administrative cost grant funds to pay
legislative lobbying costs related to funding for Indian education and the new
dormitory were “well within [the School Board’s] responsibilities to seek to improve
the program and facilities” for the students.

Office of Inspector General Comments

The basic cost principles concerning the eligibility of expenditures for Federal
participation are that the costs are allowable under the program, allocable to the
program, and reasonable. We concluded that the School Board could manage its
funds more effectively if it adhered to its budgets. Specifically, the School Board
could ensure that its costs are paid with administrative cost grant funds, that
lobbying costs are not paid with Federal funds, and that the number of stipends paid
and the number of travelers and the destinations are reasonable. However, we do
not believe it is reasonable for Federal funds to be used to pay for meetings that
were not provided for in the budget or for travel expenses for excess numbers of
personnel to attend meetings. Incurred expenditures in excess of the budget
negotiated between a contracting officer and the School Board should, in our
opinion, be paid with School Board funds.




                                         13
                                                          APPENDIX 1


            CLASSIFICATION OF MONETARY AMOUNTS

                          Funds To Be Put
        Finding            To Better Use    Questioned Costs

Dormitory Funding             $253,339

Financial Management:
  School Board Expenses                         $64,546
  Lobbying Costs                                  2,122

    Total                    $253,339




                                14
                                                   APPENDIX 2


   DISTRIBUTION OF LOBBYING SERVICES COSTS AMONG
    MEMBER SCHOOLS OF THE ASSOCIATION OF NAVAJO
     COMMUNITY CONTROLLED SCHOOL BOARDS, INC.



              School                     Amount

Alamo Navajo School                       $2,807

Black Mesa School                           755

Borrego Pass School                        1,312

Canoncito School                            603

Leupp   Schools                            3,992

Little Singer School                        657

Pinon Dormitoty                            1,589

Ramah Navajo School                        3,573

Rock Point School                          3,277

Rough Rock School                          7,754

Shiprock Alternative School                1,241

Shiprock Alternative Kindergarten           747

Shiprock Dormitory                         1,503

Tohatchi Special Education                1 9 0

    Total




                                    15
                                                                               APPENDIX 3




Memorandum

To:             Assistant Inspector General for Audits

From:
                Assistant Secretary - Indian Affairs

Subject:        Draft Audit Report on Selected Financial Activities of the Pinon Community
                School Board (Assignment No. C-IN-BIA-005-94)

We have reviewed the draft audit report. Before addressing the specific recommendations,
we suggest several changes in wording to improve the accuracy of the statements in the
report.

Introduction

In the second paragraph on page 2, a statement is made that the funds are allocated “on a pro
rata basis according to a formula that identified the funding necessary to sustain each school. ”
This is inaccurate, as the formula is used to allocate available resources equitably among the
schools based upon the characteristics of their student population. The formula is not used to
determine “funding necessary to sustain each SChOOl.” Some have suggested that a weighted
student unit value of $3,500 would be required to provide appropriate levels of support,
which is approximately thirteen percent more than the current level of support.

Student Count

On page 5 a statement is made that the “School Board inappropriately increased its student
count and that the Bureau conducted an inadequate certification of the student count. ” No
where in the audit is it stated that the students claimed were not in residence during the count
week. The certification required by regulation is solely for the period of the count week, not
for any time subsequent to the count week. Therefore. since the audit provides no evidence
that the students were not in attendance during the count week, the section of the report
should be revised.

The last sentence on page 5 indicates that “the School Board received $230,559 and
$337,992, respectively, in funding for students who did not reside in the dormitory. As
provided for in the regulations, the “September ADM will be used to determine the final



                                             16
                                                                             APPENDIX 3
                                                                             Page 2 of 19


allotments for the school year. ” We agree that the school reported students over the capacity
of the dormitory and that the Bureau was guilty of an administrative oversight in not limiting
funding for residential students to the authorized capacity of 131 students. The funding
differences, however, would be substantially below those referenced in the report. For
example. in school year 1992-93, the school claimed 141 students. The funding for the ten
students in excess of the authorized capacity would range from $35,200 to $39,100.
Likewise, for the school year 1993-94, Pinon was funded for 188 students, or 57 over the
authorized capacity. The funding difference associated with these 57 students would have
been between $233,600 and $258,100.

The first paragraph on page 6 contains the following sentence: “The Code (25 CFR 39.34)
also states that another week may be substituted for the specified count week if it can be
established that to use the specified count week would result in ‘grossly inaccurate’ student
counts. ” There is an extremely important qualification in the Code which is that onlv the
school board can request the use of a different count week; there is no option for the Bureau
of Indian Affairs (Bureau) to direct the use of a count week other than that specified in
regulation, i.e., the last week in September.

The second paragraph contains the statement that: “The Bureau did not consider the
dormitory’s attendance either before or after the count week because the Bureau’s funding
distribution method bases the entire year’s funding on attendance during the count week
alone. ”

This statement gives the impression that the “funding distribution method” is subject to
administrative discretion, which it is not. The distribution of funds is governed by
regulations. By law, the Bureau is required to consult with tribes and school boards on any
proposed changes to regulations. The Bureau is not unaware of the shortcomings in the
current methodology. During the past two years, the Bureau has consulted on two separate
occasions on proposed changes to the count week and on suggestions that more than one
count week be used. The Bureau has also consulted on six other occasions concerning the
Indian School Equalization Program (ISEP) during which changes to the count week were
discussed. In addition, language was proposed with the FY 1995 budget request which would
have based funding on prior year student counts. The fact is that there is no consensus in this
area among tribes and school boards, and even the U.S. House of Representatives and the
U.S. Senate have taken substantially different positions in their action on the FY 1995 budget
request.

Bureau Certification

On page 8, the report states that the auditors informed the Chinle Agency Superintendent that
the average attendance at the dormitory was far less than the student count of 188, however,
the funding level for the dormitory was not adjusted. As noted above, regulations require
that the September count week be used as the basis for final allotments. There is no
provision in law or regulation to adjust the funding downward for students who leave the
school or upward for students transferring to the school. While one may question this from a
policy perspective, the fact is that neither the school nor the Superintendent violated either


                                           17
                                                                               APPENDIX 3
                                                                               Page 3 of 19


law or regulation so there is no basis upon which the Bureau could have reduced the funding.

Excess Funds

As noted earlier, the report’s estimate of the amount of excess funds is grossly overstated
based on current law and regulation. The report assumes that some unidentified portion of
the funds will be carried over to the 1994-95 school year. The contract with the School
Board for fiscal year 1992 has a final close out date of September 30, 1994, and the
determination as to the amount of “excess funds, ” if any, will be made subsequent to that
date.

The report also states that the School Board has “not had its annual audit performed for the
year ending June 30, 1993. ” The School Board has retained the services of Irwin Newberry
and Parris, a CPA firm in Gallup, New Mexico. We are advised that the Office of the
Inspector General should receive the required audit report by October 15, 1994.

School Board Expenses

On page 13, the report incorrectly cites 25 U.S.C. §2008 as placing limitations on the amount
of Indian School Equalization program funding that the Pinon School Board could spend on
school board activities. A careful reading of the entire section shows that when the law
applies to both Bureau-operated and contract schools, the words “Bureau and contract school”
or “Bureau or contract school” are used. Unlike other portions of $2008, the limitation on
spending for school board activities applies o& to Bureau-operated schools. Therefore, we
request that this entire section of the report be deleted.

Recommendations and Response

Recommendation A. 1. Direct the Chinle Agency Superintendent for Education to develop
and implement policies and procedures to ensure that the Pinon dormitory is funded only for
the actual number of students residing in the dormitory. These procedures should include a
periodic review of the actual attendance at the Pinon dormitory to verify student counts.

Response: The Bureau does not concur. The recommendation is contrary to existing
regulations found at 25 CFR §39.32.

Recommendation A. 2. Determine the disposition of the excess funds at Pinon Community
School.

Response: The Bureau concurs. The disposition of any unexpended balances will be
determined as part of the regular close-out process identified in the contract between the
Bureau and the Pinon School Board. The responsible contracting officer is Mr. James Harjo
and the estimated completion date is January 1, 1995.

Recommendation B. 1. Direct the Chinle Agency Superintendent for Education and the
Facilities Management and Construction Center Contracting Officer for the dormitory design


                                             18
                                                                               APPENDIX 3
                                                                               Page 4 of 19

and construction contract to review School Board expenditures and budgets periodically to
ensure that School Board expenditures, specifically travel and stipends, are reasonable.
justified. and within spending limitations.

Response: The Bureau concurs. Section 281 of the School Board’s contract specifically cites
25 CFR §276, Appendix A, Part II, B. 28. which states:

       Travel costs are allowable for expenses for transportation, lodging, subsistence. and
       related items incurred by employees who are in travel status or official business
       incident to a contract program. Such costs may be charged on an actual basis, on a
       perdiem or mileage basis in lieu of actual costs incurred, or on a combination of the
       two, provided the method used is applied to an entire trip, and results in charges
       consistent with those normally allowed in like circumstances in non-Federally
       sponsored activities. The difference in cost between first-class air accommodations
       and less-than-first-class air accommodations is unallowable except when less-than-first-
       class accommodations are not reasonably available.

Additionally, all costs related to the Pinon Dormitory construction contract will be reviewed
to ensure that the expenditures are reasonable, justified and allocable to the contract. The
reviews will be performed prior to the approval of each project payment request from the
Pinon School Board. The responsible official is Lloyd Spotted Wolf, Contracting Officer and
Technical Project Manager for the Pinon Dormitory project.

Recommendation B. 2. Ensure that the School Board complies with contract and grant
standards for administrative and financial management systems prior to awarding any
additional contracts and/or grants to the School Board. Specifically, the School Board should
maintain current accounting records, perform a financial audit for school year 1992-1993,
maintain a check register, reconcile bank statements, administer a budget control system for
each program, and require travelers to prepare travel expense forms upon completion of
travel.

Response: The Bureau partially concurs. A number of tribes and tribal organizations with
whom the Bureau contracts have internal control problems similar to those experienced by the
School Board. As opposed to declining to renew contracts with contractors in these
situations, the action normally recommended by the Inspector General is that the Bureau treat
these organizations as “high risk” grantees. The additional controls placed on high risk
grantees include:

       (1)    Requiring payment on a reimbursable basis;

       (2)    Withholding the authority to proceed to the next phase of evidence of
              acceptable performance within a given funding period;

       (3)    Requiring additional, more detailed reports;

       (4)    Requiring additional project monitoring;



                                           19
                                                                               APPENDIX 3
                                                                               Page 5 of 19

       (5)    Requiring the grantee or subgrantee to obtain technical or managerial
              assistance; or

       (6)    Establishing additional prior approvals.

It should be noted, however, that the OIG has not formally notified the Bureau that it
considers the School Board to be a high risk grantee. If and when such formal notification is
received, the responsible contracting officers will be Mr. James Harjo (school operations
contract) and Mr. Lloyd Spotted Wolf (facility construction contract).

Recommendation B. 3. Review the $46,125 of excess administrative expenses incurred by
the School Board and determine the amount that should be returned or otherwise resolved.

Response: The Bureau does not concur. As noted in the body of this memorandum, the
limitation found in 25 USC §2008 (C)(2)(C) applies only to Bureau-operated schools. not to
contract schools.

Recommendation B. 4. Require the Pinon Community School Board to repay the
Government for the $2,122 of unallowable lobbying costs. (Appendix 2 provides a
breakdown of the total costs of $30,000 for legal fees among the member schools of the
Association of Navajo Community Controlled School Boards, Inc. The Bureau should
determine whether recovery of funds from the other member schools is appropriate.)

Response: The Bureau does not concur. The OIG is currently auditing Department of the
Interior contractors and grantees on their compliance with lobbying restrictions. In
scheduling the entrance conference for the Bureau. the auditor-in-charge stated that Indian
tribes are exempt from the anti-lobbying provisions. We would suggest that the OIG needs to
develop a consistent position on this question.

We have also attached the School Board’s response to the draft audit report. Additional
details are provided in their response which merit attention and we request that the full School
Board response be printed in the final audit report.


Attachment




                                          20
                                                                   APPENDIX 3
                                                                   Page 6 of 19



     PINON COMMUNITY SCHOOL, INC.
                 Post Office Box 159, Pinon, Arizona 86510
                      (602) 725-3234/3236 FAX (602) 725-3232

                               August 22, 1994




Honorable Ada Deer
Assistant Secretary, Indian Affairs
Department of the Interior
Washington, D.C.   20240

           Re:     Draft Audit Report -- C-IN-BIA-O05-94

Dear Ms. Assistant Secretary:                                  .

           The Inspector General filed a Draft Audit Report on the
Pinon Community School with you on June 20, 1994, but this draft
was not supplied to us until the Navajo Area Director did so by
memo dated July 27. We received it on August 1, but no deadline
for submitting our comments was noted. After speaking with your
office on August 12, we received permission to submit written
comments to you by August 22. Thank you for your consideration in
granting this request.

          We will offer our comments in accord with the sections
of the draft report.


A.   DORMITORY FUNDING

           In this section, the auditors make several charges
against the School Board with regard to funding for students
enrolled at the Pinon dorm during school year 1992-93 and school
year 1993-94. We respond to these below.

           Number of Students Counted. The auditors state that
Pinon exceeded the 131 capacity level stated in the contract. It
is true that we admitted more students than the 131 level stated
in our contract, but we did not violate any regulations by doing
so. Our dorm is intended to provide lodging for children with
transportation, social or other problems that make them need a
boarding facility in order to be able to attend school.

           It should be noted that the 131 capacity set out in our
contract has no meaningful historical significance.   Our dorm
buildings are more than 50 years old, so any capacity they were
initially designed to serve is no longer known. No capacity


                                    21
                                                          APPENDIX 3
                                                          Page 7 of 19
                                  -2-

limitation was included in our prior 3-year contract.    (It was
inserted in this contract by the contracting office, not by the
School Board.)   Furthermore, the resolutions Pinon received from
the Navajo Nation expressly stated that the School Board should
determine how many children it can serve, as it is the better
                                                        ..——--
-judge of its facilities capabilities.

           Because it wants to enable as many children as possible
to be able to attend school, the School Board does not like to
turn away any child who seeks admission to the dorm in order to
attend Pinon Public School.

           The School Board corresponded and met with OIEP
officials about its admission of students in excess of 131 in
SY93-94.  Of course, the primary concern of all was whether it was
safe to house this many students in the dorm. At the beginning of
the school year, the School Board arranged for the Chinle Agency
Facilities Safety Officer to inspect the premises; he advised the
School Board that the dorm could accommodate 212 children. Mr.
Rousseau from the Navajo Area office later wrote a 'memo that said
no more than 131 children could be accommodated, but he did so
without visiting the premises or consulting with the School Board.
In addition, the space limitations he used did not check out.

            OIEP certified Pinon’s SY93-94 dorm student count at 188
students.    This was done after the customary OIEP audit of the
count submitted by the School Board. Under the regulations (25
CFR Part 39) , each student counted for the dorm must meet these
criteria:
          - - listed on the Pinon rolls during count week
          -- not be listed on any other dorm’s rolls during
             count week
          —— be in actual attendance at the Pinon dorm at least
             one full day during count week
          - - be an eligible Indian student (per 25 USC §2008(f))

OIEP’S auditors certified the Pinon student and WSU count for
SY93-94.  Thus, under the Indian School Equalization Formula, the
School Board was entitled to receive funding for all certified
WSUs. OIEP properly supplied these funds under the regulations.

           Substitute Count Week. The official student count for
the BIA school system has been the last full week in September for
many years. On page 6, the draft audit implies that BIA should
have taken steps to use another count week for Pinon and
criticizes it for not doing so.   In support of this assertion, the
auditors cite 25 CFR 39.34.

          This suggestion   and criticism are not well based. As a
reading of that provision   reveals, the substitution of a different
count week comes about if   a school petitions for one.   It is not
something BIA does on its   own motion.   It is clear that the intent



                                 22
                                                         APPENDIX 3
                                                         Page 8 of 19
                                -3-

of this provision is to enable a school that expects unusual
absences during count week (due to tribal ceremonial days, for
example) , to petition for a different week when a more reasonable
number of its student enrollment is expected to be present.

           The auditors, however, imply the BIA should have
scheduled a different count week for Pinon on grounds that the
number of children that would be expected to be enrolled in the
dorm that week would be too hiqh, not too low, and, further,   that
BIA should have predicted this. This does not make sense. In
addition, it misperceives the mission of the dorm and the ISEF
program:  to enable and encourage children to attend school, and
to provide funding for school and dorm operations. The auditors’
emphasis seems more focused on penalizing a school for encouraging
children to enroll.

           “Excess Funds”. On page 9, the auditors introduce the
term “excess funds”. This seems to be the difference between the
ISEF funding received (higher) for the dorm program and the amount
the auditors believe should have been provided (lower) for what
the auditors describe as the “average” number of students in the
dorm throughout the year. The auditors say the amount of “excess
funds” for SY92-93 was $230,559, and for SY93–94 was $337,992.

          The School Board strongly objects to the implication
that it received any funds to which it was not legally entitled.
BIA properly paid and the School Board properly received funding
pursuant to the ISEF statute and regulations.

            We must also protest the auditors’ position on practical
grounds.   At the beginning of a school year, a School Board has to
make its plans in accord with the number of students it has to
serve at that time, not some subsequent estimate of a possible
decline in enrollment. It would be irresponsible for a School
Board to plan for a smaller number of children than actually
enroll during the early weeks of the year, as it would in effect
be enc ouraginq dropouts.

           Ideally, all schools should want to minimize drop-outs,
as their mission is to educate. The Pinon School Board hopes that
the administration of the Pinon Public School, where the dorm
students are educated, takes all necessary steps to encourage
children to stay in school. But this is not something over which
the Pinon Dorm has any control, because it does not run the
educational program for the dorm students.

          Students who drop out of the Pinon Public School lose
their dormitory eligibility. Over 25 students who enrolled in our
Dorm in SY93-94 left the public school. They may have transferred
to other schools, their families may have moved out of the area,
etc.  Of course there is no way we can anticipate such events.

          Use of an “average” number of students in the dorm to


                                23
                                                         APPENDIX 3
                                                         Page 9 of 19
                                -4-

determine funding is also wrong for another reason: Student
situations are subject to change during the year. The Pinon Dorm
is located in a part of the Navajo Reservation that is very
vulnerable to weather extremes. During some months of the year,
motor vehicle transportation to/from some remote homes is
possible; in other months it is not. Students often stay in the
dorm during the bad weather months so they can get to school
(located one mile from dorm) , while when the weather is clear and
the bus can get through (or parents can drive them to school) ,
they can live at home with their families. Would the auditors
want the School Board to turn away these students who need housing
only for parts of the school year?

           The auditors did not report that over 40 students
enrolled at the Pinon Dorm after count week. Under the
regulations, we did not get additional funding for these students.
We are not complaining about this, just acknowledging that this is
the way the system works.

           “Recruitment of students for count week”:  The auditors
assert that the School Board and its staff recruited students to
enroll in the dorm merely for count week. The School Board
categorically denies that its efforts to enroll children in the
dorm -- which means they would also be enrolled in school -- was
limited to attendance during the count week. The School Board
endeavors to encourage Navajo children to seek an education for
the full school year, and operates a dormitory to reach children
who need a place to stay in order to do so.

           The School Board acknowledges that 10 children of staff
and board members enrolled in the dorm in SY93-94. These children
represented 5% of the total dorm enrollment. The School Board
will make a special effort to assure that children who enroll in
the dorm need to do so in order to attend school.

          On page 9, the auditors conclude that the School Board
received a total of $568,551 in so–called “excess Program funding”
over a two-year period, and state that --

     “ [W]e believe that the potential exists for these funds
     to be subject to waste and abuse because they were not
     identified to any specific need. Consequently, the
     excess money appeared to be a discretionary fund for the
     School Board’s use. “

          This is a wholly unsubstantiated statement and nothing
more than bald speculation.  It sounds as though the auditors are
accusing the School Board of using carry-over funding for
something other than program enhancing purposes. There is no
evidence whatsoever that any carry-over funds are now or ever have
been used as “a discretionary fund” by the School Board or that
there is any likelihood this will occur.



                               24
                                                         APPENDIX 3
                                                         Page 10 of 19
                                -5-

           In fact, the School Board’s carry-over from SY92-93 was
approximately $127,000 (amount will be confirmed with precision in
the soon-to-be-completed single audit.)       Contrary to the
auditors’ assertion, these funds were identified for specific
program purposes. About $30,000 was used to buy much-needed
furniture for the dorm, as well as recreational supplies for the
children. The remainder was carried-over into SY93-94 and, under
the “FIFO” principle, was the first funding spent in SY93–94.
                                          ..-
           School Year 93-94 has now been completed, and the School
Board estimates the carry-over to be about $140,000. Note that
this represents the agg regate carry-over for the two-year period.
Once this amount is identified with greater precision (after
outstanding vendor invoices, etc. are paid) , the School Board will
determine how best to utilize these funds for a program-related
purpose. Of course the FIFO principle applies to these funds,
too.

           It should also be noted that for several months of SY93-
94, the Executive Director position was filled at different times
by two other staff persons in an “acting” capacity. Thus, the
salary that would have otherwise been paid to an Executive
Director was not incurred. The staffers who discharged these
functions were paid the salary for the positions they then held --
Homeliving Specialist, and later the Business Manager.   (Recently,
the then–Business Manager was appointed Executive Director and a
new Business Manager was hired. ) This staffing circumstance
contributed to the amount of the expected SY93-94 carry-over.

           Additional school operations funds were “saved” because
25% of the salaries of the then-Business Manager (now Executive
Director) , current Business Manager, Support Services Coordinator
and Executive Secretary has been charged to the new dorm
construction budget because of the work they do on that project.

           Thus, the auditors’ suggestion that the School Board has
some sizeable discretionary fund is totally inaccurate. We ask
that the auditors remove this unfounded allegation from the final
audit report.

           Single Audit. The auditors state on page 9-10 that “the
School Board had not had its annual audit performed for the year
ending June 30, 1993.” Please note that the School Board’s
contract (Sec. 203) provides that the single audit report is due
13 months following the end of the fiscal year. The 13th month is
October, 1994. Thus, this audit is not late.

           In any event, the School Board’s auditor commenced the
audit in question in May, 1994, and it is nearing completion. The
auditor will then begin the audit for the subsequent fiscal year.

           The School Board does indeed maintain a check register;
it is in computer, not manual form and is up–to–date. We



                               25
                                                          APPENDIX 3
                                                          Page 11 of 19
                                  -6-

acknowledge tardiness in reconciling our bank statement, but this
activity is now up–to-date.    (The auditors referred to these
activities on page 10 of the draft report. )

B.   FINANCIAL MANAGEMENT

          General Ledqer.   On page 12, the auditors assert that
expenditures for SY1992–1993 and part of SY1993-94 were not posted
to the general ledger until February, 1994. This is erroneous.
It is the administrative staff’s practice to record expenditures
in its computerized general ledger as they are incurred.

           When the IG’s auditors were at Pinon, the Business
Manager was making adjustments to the general ledger expenditure
records, as some were not properly classified to the school
operations program as distinct from the construction effort.
These adjustments for SY1992-93 were being made within the time
period allowed for conducting the annual audit.   (See above.)
This adjustment activity was not the initial posting of these
                                                   .
expenditures.

          We ask the auditors to remove this erroneous statement
from the final report.

           Financial Reports Reqardinq Dormitorv Design Budqet.
The audit report states that the School Board did not submit the
documentation required to support drawdowns from the design
budget. Actually, the School Board was submitting financial
reports in the customary form, but, as it turned out, this format
was different from that required by the Facilities Management and
Construction Center (FMCC) . School Board staff have been working
with FMCC staff (particularly Delphie Montoya) to assure that it
is now supplying information, including expenses documentation, in
the desired format.

           In May, 1994, the School Board made what it believes is
a qualifying report to FMCC for the period ending June, 1993. MS.
Montoya has not indicated to the School Board that she found any
problems with this report.   FMCC is permitting Pinon to draw down
design budget funds.

          The School Board staff is going forward to prepare
subsequent design budget reports in the proper format, and expects
to submit them in September.

           Travel, stipends, leqal fees, and telephone expenses  i n
dormitortoy design budqet. At page 12, the audit report asserts
that these items in the design budget have been overspent.      It is
accurate that the budget for travel, stipends, and legal fees have
been exceeded; it is not true the telephone budget has been
exceeded.   Some comments about these budget items are in order.

           -- The budget amounts for travel and stipends has been


                                26
                                                        APPENDIX 3
                                                        Page 12 of 19
                                -7-

exceeded because the School Board has found, from hard-earned
experience, that unless its representatives physically go the the
FMCC offices, little, if any, action on its project gets done.
FMCC has considerable oversight and approval authority over the
steps in our new dorm construction project; if their review and
approval are not timely performed, our project is further delayed.
It is recognized throughout the Bureau that FMCC is shorthanded.

           -– The staff shortages at FMCC--also contributed
significantly to the need for Pinon to incur legal fees. Very
often in the course of this project, we have had to have our
attorney do work that was unanticipated, and the Contracting
Officer’s Representative often tells us to assign additional tasks
to our attorney. We do this because we want to get the work done.

           -– It is also worth noting that the budget FMCC allowed
for legal work is merely 24 hours for approximately a 24-month
period.  As experience has demonstrated, this allowance was
terribly underestimated by FMCC.   In fact, the School Board had
estimated a higher number of attorney hours would be needed, but
FMCC steadfastly refused to adopt our estimate. As a result of
FMCC’s mis-calculation, our budget for this item is exceeded.

           Charter Air Transportation. The auditors complain about
the use of charter travel, and suggest that automobile travel
should have been used because it is more economical.

           Charter air transportation was expressly allowed in our
contract in recognition of our very remote location. While it is
true that auto transportation would be more economical in terms of
budget, the tremendous time loss of auto trips to Phoenix and
Albuquerque must be considered. When the Business Manager was
serving as Acting Executive Director as well as working on the
construction project, he did not have the luxury of spending 5-6
hours (one way) of auto travel time to attend construction
meetings, even if they were scheduled in advance.   It was
essential that his time away from the dormitory be minimized; thus
charter air transportation was the only alternative. The charter
aircraft departure point is 30 miles from the school (on Black
Mesa) .

           School Board Expenses. On page 13, the auditors assert
that the School Board exceeded statutory spending limitations for
school board expenses. This is incorrect. The provision cited by
the auditors -– 25 USC §2008(c)(2)(C) -- establishes limits on the
amount which Bureau schools may spend for meeting expenses and
memberships in organizations engaged in activities on behalf of
Indian education. This limitation does not apply to contract
schools such as Pinon. The definitions of these two terms at 25
USC 52019 demonstrate that the term “Bureau school” refers only to
schools directly operated by BIA, and a “contract School” is one
operated under an ISDA contract.


                               27
                                                          APPENDIX 3
                                                          Page 13 of 19
                                -8-


           The statute does not place these limitations on expenses
of contract and grant schools because the responsibilities of
these latter schools greatly exceed those of Bureau school boards.
Contract and grant school boards are responsible for all facets of
school operations such as curriculum policy development;
personnel; financial management; administration; etc. By
contrast, Bureau schools are operated by federal employees; their
School Boards have very limited authorities and responsibilities.
                                          .
           The auditors devote two-pages to school board expenses
which they label as “unreasonable or unnecessary”, but they do not
describe the standard against which they measure these expenses.
They state that "many” of the meetings and conferences attended by
board members and staff “could have been conducted by telephone or
at a lower cost location or even at Pinon. “ They do not tell us
which ones they are, however. And presumably they are merely
expressing their own personal opinions about the ones they
criticize.

          We have the following comments to offer regarding the
particular meetings they singled out for criticism:

           -- Certainly the trip to Washington, D.C. to attend key
congressional hearings could not have been “conducted by
telephone, or at a lower cost location or even at Pinon.” If
their complaint is about the cost of hotel rooms in Washington,
D.C., we share this complaint, but can do nothing about it. Hotel
accommodations in that city are scarce and certainly more
expensive than anyone would like.

           -– The auditors next mention the 1993 annual meeting of
the Association of Community Tribal Schools (ACTS) held in
Honolulu, Hawaii.   Pinon did not select this location, ACTS did.
As noted, four board members and four staff -- a total of eight
people -- participated in this 4-day meeting at a total cost of
$7,648.  This works out to a total of $956 per person.   B Y no
one’s measure can this be characterized as extravagant.

           -- The auditors question the School Board retreat held
in Las Vegas, and state that that they “believe that the retreat
could have been conducted at a lower cost. “ They do not, however,
assert that any law, regulation or cost principle was violated.
In fact, the School Board decided on this location and scheduling
for its retreat to coincide with the Association of Navajo
Community Controlled School Boards’ Executive Board meeting there
This enabled us to achieve two purposes for one transportation
expense.

           -- The auditors are very critical of the School Board
President’s participation in 59 meetings during the 1992-93 school
year.  They make no effort, however, to describe the reasons for
these meetings or their locations. Rather, they just summarily
criticize them as “unreasonably or unnecessary” . The facts are
these:

                                 28
                                                              APPENDIX 3
                                                              Page 14 of 19
                                   -9-



           ● More than 40 of these meetings were held either at
Pinon or other locations on the Navajo Reservation, not at exotic
or frivolous locations. Those held at other Reservation locations
were for meetings with BIA; other contract and grant schools; the
Navajo Nation President; and the school board’s attorneys.

           ● Eight were trips to Albuquerque, primarily for
construction meetings with FMCC. As note-d above, if we did not go
to meet with FMCC people, little progress was made on our
construction documents. We combined one of these FMCC meetings
with our participation in the 1992 National Indian Education
Association Conference held in Albuquerque.

              ● Nine were trips to Phoenix to meet with construction
architects.

           ● There were three other destinations : Seattle (National
School Board association meeting) ; the Las Vegas retreat/Navajo
school board association executive board meeting noted above); and
Gallup, NM for a school board association meeting) .


            “Lobbyinq costs”. The auditors assert that $1,589 in
membership fees the School Board paid to the Association of Navajo
Community Controlled School Boards should be disallowed as
“lobbying costs” . We disagree.

           As the auditors acknowledge, the cost principles in 25
CFR Part 276 allow the use of contract funds for memberships fees
in civic, business, technical and professional organizations.
(See item no. 19 in the principles. ) The auditors imply that the
the Association would fall into the category of entities that
“devote a substantial part of its activities to influencing
legislation”, but they do so provide any basis for this apparent
conclusion.

           In fact, the Association’s mission is multi-faceted. It
undertakes training and technical assistance for members of school
boards operated under contracts and grants from the federal
government; helps new school board members to learn about their
duties and responsibilities for school operations, personnel,
facilities management, etc.; gathers and disseminates information
about educational programs of interest to tribal schools; keeps
abreast of federal developments that affect BIA-funded schools;
and advocates for improvements in Indian education.

           The Association’s participation in reauthorization of
the Elementary & Secondary Education Act was expressly solicited
by two Committees of Congress with jurisdiction over the
legislation -- the House Education and Labor Committee and the
Senate Committee on Indian Affairs. In fact, both panels held
hearings that were limited to Indian/Alaska Native/Native Hawaiian


                                    29
                                                                       .
                                                        APPENDIX 3
                                                        Page 15 of 19
                                -10-

education issues, and both committees specifically asked the
Association to present testimony and legislative suggestions.

            Under these circumstances, where the input of the
Association was solicited by Congress, the Association’s input to
do so would be more appropriately described as “technical
assistance” . These Committees sought the Association’s
participation because they wanted input directly from users of the
BIA system. Obviously it is within the province of Congress to
seek information from persons and ‘entities directly affected by
the laws under review.

           The draft audit report also states that the School Board
used $533 in grant funds for “legislative lobbying costs related
to funding for Indian education and a new Pinon dormitory
construction project.“ Since the report does not identify these
expenses, we are unable to provide a direct response.   This
deficiency should be cured; otherwise, this portion of the audit
report should be deleted.

           We would note, however, that if the auditors are
accurate that the expenses to which they refer were related to
“funding for Indian education and a new Pinon dormitory
construction project”, we believe that such matters are well
within our responsibilities to seek to improve the program and
facilities for Indian children in the Pinon Community.   Frankly,
if we have the opportunity to improve opportunities and conditions
for these children, we would be irresponsible for not pursuing
them. We would also note that every year the House Interior
Appropriations Subcommittee invites testimony from Indian tribes
and tribal organizations regarding BIA and IHS proposed budgets,
and devotes two (sometimes three) days to receiving oral testimony
from these representatives. They obviously want to know the views
of Indian people about these budget matters, otherwise they would
not seek testimony or hold hearings.

           As the head of the Bureau of Indian Affairs, you know
that BIA is often asked to give its views and suggestions to
Congress when Congress reviews existing laws or proposed
legislation and proposed budgets. Doubtless the Bureau’s input
was sought during the Elementary & Secondary Education Act
reauthorization effort, just as input was sought from the
Association.   And, of course, the Bureau testifies every year on
its proposed budget. To properly discharge its legislative
function, Congress needs to have access to both the operator of a
program (such as BIA), and the consumer of that program (such as
BIA-funded schools) , in order to evaluate the program’s
effectiveness.

          We strongly disagree with the superficial and
shortsighted evaluation attributed to the Interior Solicitor on
page 17 of the draft audit report. The Solicitor supposedly said
that “lobbying costs” were not allowable because “lobbying for new
laws is not in furtherance of the program contracted but seeks to


                               30
                                                        APPENDIX 3
                                                        Page 16 of 19
                                -11-


change the program. “ He (or she) further asserted that such
activity is “outside the prudent management of the program."

           This position defies both common sense and logic. One
of the most basic rights and responsibilities of anyone connected
with a public service program is to seek ways to make it better.
This applies to schools for Indian children just as to any other
public service entity. Members of BIA-funded school boards are
Indian people whose job it is to advance-the educational
opportunities of Indian children. - If they have ideas for
improvement of that system, they should have the right to share
these ideas with Congress, particularly when Congress expressly
requests them. To deny them the opportunity to do so would be to
impair the Congressional oversight function.

          And to assert that working to improve a program “is
outside the prudent management of the program” is absurd. School
Board Members cannot be asked to check at the door all thoughts
about a program -- or enhancement of that program –– which are not
contained within the pages of the contract document.   If they did,
they would not be doing their jobs.

           Furthermore, if the Solicitor’s view were the rule, the
Secretary of the Interior would be in the contradictory position
of asking tribal school boards to violate this rule every time he
undertakes consultation with these entities as required by law.
The BIA education statute specifically requires the Secretary to
consult with tribal school boards (including contract and grant
school boards) , and to give them “the opportunity to present
issues including proposals regarding changes in current practices
or programs which will be considered for future action by the
Bureau.“ See 25 USC §2010(b) .

           Ms. Deer, we hope you will not endorse the objectionable
policy contained in this Solicitor statement.   It sounds as if the
Interior Department is attempting to muzzle this School Board from
any communication with Congress, either directly, or through its
school board association, even when input is invited.   Indian
people have a unique trust relationship with the United States,
including the Congress, and en-joy First Amendment rights to the
same extent as other Americans. This relationship and these
rights must not be suppressed, as suggested by this Solicitor
statement.   You know better than most how important it is for
Indian people to be able to communicate with all facets of its
Trustee, the United States.

           Finally, the audit report states (page 17) in a
conclusory fashion that the Solicitor “reaffirmed” his position
“based on the Interior Appropriations Acts for fiscal years 1989
through 1994.”   It provided no citation to what provisions of
those laws were referred to, again denying us the chance to make a
meaningful response. Either this failure should be corrected, or
this portion of the draft report should be deleted.


                               31
                                                         APPENDIX 3
                                                         Page 17 of 19
                                     -12-




          Fiscal and Management Controls. The auditors make
several erroneous statements in this section (which begins on p.
17) to which we respond.

           -- Maintenance of check register. The auditors
incorrectly say that our Business Office does not maintain a check
register.   Our check register was, during” the time of the audit,
and continues to be maintained by computer. All checks written
are recorded in this computer program.   Perhaps the auditors’
comment is directed to the fact that we do not maintain a check
register by hand. To do so would be duplicative.

           -- Reconciliation of bank statements. We agree with the
auditors’ statement that we were behind in reconciling our bank
statements when they were here for the audit. This reconciliation
activity is now up–to-date, and is maintained on a current basis.

           –- Analysis of budgeted and actual exp enditures. We
acknowledge that portions of our initial budget were subsequently
exceeded, but the overall budget was not overspent. The business
staff reports to the School Board about this.

           -- Audit for 1992-93. As noted above, this audit is
nearing completion.   It is due 13 months after the close of the
fiscal year.
           —- Quarterlv financial status reports. We acknowledge
that we were behind on filing our reports for the 3rd and 4th
quarters of 1993 with BIA. These reports were filed by mid-
February, 1994. Our reports are now up-to-date.

           –– Single Bank Account. The auditors are critical of us
because we maintain one bank account for all of our federal
programs, rather than a separate account for each one. We
previously had individual bank accounts for our facilities,
residential, substance abuse prevention and administrative
programs and the general fund (which holds the non-federal monies
such as student activity funds, bank interest, etc.)

           We found, however, that having multiple accounts was
much more difficult administratively, particularly with regard to
employees whose paychecks are apportioned to different programs.
For example, portions of our Support Services Coordinator’s time
(and salary) are often charged to different programs to which he
provides services such as facilities, administrative,
construction, etc. One account has proved to be much easier to
maintain.   It is incorrect that our Business Manager has
difficulty telling how much money is available for each program.

           -- Overdrafts.   We acknowledge that $525 in overdrafts
were accumulated in 1993.    These occurred because at that time


                                32
                                                        APPENDIX 3
                                                        Page 18 of 19
                                -13-

only two administrative officials (Executive Director and Business
Manager) were authorized to transfer funds from our savings
account to our checking account. Delays in making transfers
occurred during this period because these two administrators were
often away from pinon at the same time working on the new dorm
construction contract.

           This administrative process has been streamlined by
working out an arrangement with our bank -to cover checks received
before our savings-to-checking transfers have been accomplished.

           -- Travel expenses policy. We believe the auditors have
misunderstood our Policy Manual provision on vouchers for travel
expenses.   We do not require a traveling employee to produce
receipts if the amount claimed for reimbursement is $26.00 per day
or less.  If the amount claimed exceeds $26.00 per day, however,
then receipts for the excess amount are required.   The setting of
the $26.00/day amount was done to eliminate the administrative
work it would take to process such a small reimbursement amount.

           We disagree with the auditors’ claim that some
“weakness” in our system leads to employees “not complying with
travel policies and procedures. ” (page 18)  In fact that statement
does not seem to have anything to do with the situation they
describe regarding the employee who received a $78 travel advance
to attend a seminar.   It is true that the employee did not attend
the seminar, and it is also true that she was not required to
submit a travel expense form. The reason is that the employee
returned the $78 advance when she returned to Pinon.   Since she
claimed no reimbursement and returned the travel advance, there
was no need for a travel voucher.

           This same employee received a $486 advance for another
trip, but then reported the check had been misplaced. A
replacement check was was issued. Several months later, the first
check was cashed. When the Business Office discovered this, it
took steps to collect reimbursement from the employee.   The full
amount of that first check was recovered. Rather than demonstrate
a ‘weakness” in our system, in our view, these incidents describe
the school administration’s ability to quickly act in response to
transgressions.


CONCLUSION

          This draft audit report correctly reports some
deficiencies in the Pinon Community School Board’s performance,
most of which have been corrected, and in the case of our SY92–93
audit, it is nearly completed.

           Primarily, however, this draft audit report is filled
with unsupported, conclusory criticisms, superficial evaluations,
and personal opinions of the auditors.   It displays little
                                                         APPENDIX 3
                                                         Page 19 of 19
                                -14-

knowledge or appreciation of the tasks and responsibilities of the
Pinon School Board, and erroneously interprets and applies the
law.

           It is unfortunate that the substantial time and expense
the I.G. auditors devoted to the Pinon audit did not produce a
more reliable or constructive product.   Instead, the School Board
and its staff had to spend untold hours working with the auditors
and responding to this draft report, all ‘to very little beneficial
purpose,

          We have, however, received some encouraging news about
our performance lately that you should know about. The Chinle
Agency education superintendent who has been providing technical
assistance to us to resolve the management findings in our SY91–92
audit told us last week that he considered 18 of these “closed”,
and praised our performance. We continue to work on the remaining
four items and hope to have them closed soon. The input provided
by the superintendent has been constructive and will help us to
improve. We are grateful to him and to our contracting officer
whose idea it was that the superintendent supply this assistance.

           Thank you again for allowing us time to comment on this
draft audit report. We would appreciate you sharing with us the
comments you file with the I.G. as well as a copy of the final
report the I.G. issues.

                                Sincerely yours,




Cc:   John Tippeconnic, Director
       Office of Indian Education Programs

      Thomas Hemstreet, Audit Coordinator
       Navajo Area Office
                                                                               APPENDIX 4
                                                                               Page 1 of 3

                        S t a t e s D e p a r t m e n t of t h e I n t e r i o r




                               September 30,        1994


MEMORANDUM

TO:          R e g i o n a l Audit M a n a g e r , Office of the Inspector General,
             Central Region, Albuquerque, New Mexico, ATTN:                         Leonard
             A. Lussier, R e g i o n a l Audit S u p e r v i s o r
FROM:        Regional Solicitor, Southwest Region
SUBJECT:     Audit of Pinon Community School Financial Assignment No.
             C-FN-BIA-005-94

By memorandum dated September 13, 1994, you requested a legal
opinion concerning the applicability of 25 U.S.C. 2008 (c) (2) (C) to
Indian Self Determination Contract Schools such as Pinon Community
School.   The question posed is whether Pinon Community School can
exceed the maximum amount allowed by the formula 1% of funds
allocated pursuant to 25 U.S.C. 2008(a).       The real question is
whether Pinon Community School is entitled to any funding
authorized by subparagraph 2008(c)(2)(C),         For the following
reasons it is my opinion that Pinon Community School as a contract
school is not authorize to use education formula funds (Indian
School Equalization Program funds) to fund school board activities.
In lieu thereof are funds available pursuant to 25 U.S.C. 2008a.

This subparagraph 25 U.S.C. 2008(c) (2) (C) states:

             From the funds allotted in accordance with the
             formula established under subsection (a) of
             this section for each Bureau school, the local
             school board of such school may reserve an
             amount which does not exceed the greater of--
             (i) $5,000, or
             (ii) the lesser of--
                   (1) $15,000 or
                   (II) 1 percent of such allotted funds,
             for school board activities for such school,
             including    but    not   limited to,       and
             notwithstanding any other provision of law,
             meeting expenses and the cost of membership
             in, and support of, organizations engaged in
             activities on behalf of Indian education.

Subsection 2008(a)   requires the Secretary to establish, by
regulation, a formula for determining the minimum annual amount of


                                        35
                                                            APPENDIX 4
                                                            Page 2 of 3


funds necessary to sustain each Bureau or contract school. 25
U.S.C. 2019 states:

          § 2019.   Definition
          For the purpose of this chapter--
                (3)  the term ‘Bureau funded school”
          means--
                     (A) a Bureau school;
                     (B) a contract school; or
                     (C) a school for which assistance is
          provided under the Tribally Controlled Schools
          Act of 1988 [25 U.S.C.A. § 2501 et seq.];
                (4) the term ‘Bureau school” means a
          Bureau operated elementary or secondary day or
          boarding school or a Bureau operated dormitory
          for students attending a school other than a
          Bureau school;
                (5) the term "contract school” means an
          elementary or secondary school or a dormitory
          which receives financial assistance for its
          operation under a contract or agreement with
          the Bureau under section 450f, 450h(a) or 458d
          of this title.

Subparagraph 2008 (c) (2) (C) allows the local school board of each
Bureau school to reserve an amount, determined by a formula defined
in 2008(c)(2)(C)(i) and (ii) for school board activities.       Since
subparagraph 2008(c) (2) (C) only refers to Bureau schools, and since
Pinon Community School is a contract school,           pursuant the
definitions of Bureau school and contract school found in 25 U.S.C.
2019, Pinon community School is not eligible to spend any funds
generated by the formula described in 25 U.S.C. 2008.       Since 25
U.S.C. 2008(c)(2)(C) is a specific exception to the expenditure
purpose of the formula funds, it must be construed strictly.

If Congress intended contract schools to spend formula funds on
school board activities, Congress would have used the terms ‘Bureau
and contract school” or “Bureau funded school.” Congress did not
use these terms.

There is further evidence that Conqress only intended that Bureau
schools are the only schools permitted to ‘use formula funds for
school board expenses. The statutory note at the end of 25 U.S.C.
2008 states:

          1990 Amendment
          Subsec. (c) (2) . Pub. 1. 101-301, § 5 (d) (1) (D) ,
          (E) redesignated par. (3) as (2) and struck
          out former par. (2) which had directed that
          all Bureau and contract schools receiving
          funds under this section had to receive an
          equal amount as an allowance for local school

                                     2

                                36
                                                                                 APPENDIX 4
                                                                                 Page 3 0f 3


              board   training and activities       including,
              notwithstanding any other provision of law,
              meeting expenses and the cost of membership in
              or   support of    orqanizations    engaged in
              activities on behalf-of Indian e d u c a t i o n .

The wording stricken by Pub.L. 101-301 is similar t o t h e w o r d i n g a t
the end of subparagraph 2008(c)(2)(C).      The repealed statutory
language pertained to “all Bureau and c o n t r a c t s c h o o l s . ”  The
present statutory language only pertains to Bureau schools.

It is my opinion that the Pinon Community S c h o o l B o a r d l a c k e d
a u t h o r i t y t o e x p e n d a n y f u n d s f o r s c h o o l b o a r d activities f r o m
f u n d s a l l o c a t e d u n d e r t h e s c h o o l f o r m u l a . All funds expended by
Pinon Community School p u r s u a n t t o s u b p a r a g r a p h 2 5 U.S.C.
2008(c) (2) (C) are misapplied funds. I f s u c h m i s a p p l i c a t i o n o f t h e
funds is innocent the School should reimburse the government from
its a d m i n i s t r a t i v e c o s t g r a n t f u n d s a s a u t h o r i z e d b y 2 5 U.S.C.
s u b s e c t i o n 450c(d).             If the misapplication of the funds is
determined to be willful, the matter should be investigated for
violation of 25 U.S.C. 450d.
If you need any further assistance in this matter, please contact
me.
                                                    For the Regional Solicitor




                                                3

                                           37
                                                                                      APPENDIX 5
                                                                                      Page 1 of 3


              U n i t e d S t a t e s D e p a r t m e n t of t h e I n t e r i o r

                                OFFICE OF THE SOLICITOR
                                 Regional Office, Southwest Region
                                    .Albuquerque, New hlexico
                             2400 Louisiana Blvd. , N. E.
                               Building One, Suite 200
                        Albuquerque, New Mexico  87110-4316


                                     May 12, 1994


MEMORANDUM:

TO:        Regional Audit Manager, Central Region, Office of the
           Inspector General, Albuquerque, New Mexico,
           ATTN: Regional Audit Supervisor

FROM:      Regional Solicitor, Southwest Region

SUBJECT:   Audit of Pinon Community School Finance Activities
           (Assignment No. C-IN-BIA-O05-94)

By memorandum dated April 8, 1994 YOU asked for our opinion on
whether lobbying costs as defined in 48 CFR Section 31.205-22 are
allowable costs pursuant to 25 U.S.C. 2008a Administrative Cost
Grants and Indian Self-Determination Contract indirect cost
standard for operation Bureau funded schools and dormitories.

The cost standards found at 48 CFR Part 31 are not applicable to
Indian Self Determination Contracts. See 25 U.S.C. 450j.

The applicable cost standards                   are     found        at   25   CFR   Part   276,
Appendix A and 25 U.S.C. 2008a.

The lobbing costs incurred by Pinon Community School and other
contract and grant schools amounted to $30,000.00. The costs were
to pay for legal services to draft legislative amendments for
reauthorization of education laws.     The Association of Navajo
Community Controlled School Boards, Inc. (Association), of which
Pinon Community School (Pinon) is a member, voted to employ a law
firm to perform the lobbying activities.    Pinon’s annual dues to
the Association is $1,000.00 a year. Pinon’s share of the lobbying
cost was $1,589.00.     In addition, Pinon used over $500.00 of
administrative   cost grant funds for lobbying to         influence
legislation on funding for Indian education and a new Pinon
dormitory construction project.

The lobbying services were performed by a law firm.   Part II of
Appendix Standards for Selected Items of Cost, cost standard 16
Legal Expenses states in part:      “the cost of legal expenses
required in the administration of grant programs is allowable.”
Lobbying or influencing legislation is not a legal expense
envisioned by the cost standard.      Lobbying is not an act of


                                               38
                                                      APPENDIX 5
                                                      Page 2 of 3




administration of the contract. You also raise an issue concerning
the expenditure of funds to lobby for funding construction of new
facilities.     The Pinon’s contract is for operation of the
residential dorm program. The use of $500.00 of its funds to seek
construction of a new building is outside the scope of its contract
and” is not a legal expense incurred for the administration of the
contracted program. As a result, payment of these costs as legal
expenses is not authorized.        cost standard 19 Membership,
subscriptions and Professional Activities

          a.   Memberships. The cost of membership in
          civic, business, technical and professional
          organizations is allowable provided:   (1) The
          benefit from the membership is related to the
          grant program, (2) the expenditure is for
          agency membership,    (3)  the cost of the
          membership is reasonably related to the value
          of the services or benefits received, and (4)
          the expenditure is not for membership in an
          organization which devotes a substantial part
          of its activities to influencing legislation.

           (Emphasis added)

Pinon’s annual dues are $1000.00 per year in the Association while
its share of support for the lobbying effort was $1,589.00. It is
a reasonable finding that the effort to influence legislation is a
substantial part of the activities of the Association and its
therefore unallowable based upon the amount of funds expended.

Pursuant to 25 U.S.C. 2008a the purpose of an administrative cost
grant is to pay administrative and indirect costs incurred in
operating contract schools in order to:

     (A) enable tribes and tribal organizations operating such
     schools, without reducing direct program services to the
     beneficiaries of the program, to provide all related
     administrative overhead services and operations necessary
     to meet the requirements of law and prudent management
     practice, and

     (B) carry out other necessary support functions which
     would otherwise be provided by the Secretary or other
     Federal officers or employees, from resources other than
     direct program funds, in support of comparable Bureau
     operated programs.

The administrative cost grant relates to support services which the
government would not charge to the direct education budget.    Such
services include personnel, acquisition, property and supply,
finance, disbursements, audit and legal services. Construction of
new facilities is not a support function in furtherance of the

                                   2

                              39
                                                                                  APPENDIX 5
                                                                                  Page 3 of 3



direct educational program.               Lobbying for new laws is not in
furtherance of the program contracted, but seeks to change the
program.    Such lobbying is outside the scope of administrative
support of the contracted functions and is outside of the prudent
management of the program.              While there are many desirable and
positive activities which indirect costs could be expended for, a
prudent management practice will exclude them if they are not
related directly to the day to day operations of the contracted
program.   Therefore, the use of an administrative cost grant for
lobbying purposes is unrelated to management of Pinon’s educational
program and i s u n a l l o w a b l e .

If you need a n y f u r t h e r a s s i s t a n c e , p l e a s e a d v i s e .
                                                        For the Regional Solicitor




                                                        Thomas O’Hare
                                                        Attorney-Advisor




                                                    3
                                               40
                                                         APPENDIX 6




                             May 20, 1994

MEMORANDUM


TO:          Regional Audit Manager, Central Region, Office of
             Inspector, Denver Colorado, ATTN:   Regional Audit
             Supervisor, Albuquerque, New Mexico

FROM:        Regional Solicitor, Southwest Region

SUBJECT:     Audit Pinon Community School Finance Activities

By memorandum dated May 12, 1994, I responded to your April 8, 1994
request” for an opinion regarding lobbying activities paid for by
Pinon Community School with Federal Funds. The lobbying costs were
paid to the Association of Navajo Community Controlled School
Board, Inc. and to Pinon’s lawyer. I found the lobbying costs to
be unallowable under applicable federal law cited in my May 12,
1994 opinion.   I reaffirm this opinion.

I have recently uncovered additional authority in support of this
view.

The following prohibition appears in the Interior Appropriations
                                                     -
for FY-89 through FY-94 (Pub. L. 100-446; Pub. L. 101 121; Pub. L.
101-512; Pub. L. 102-154, Pub. L. 102-381: Pub. L. 103-138)

             No part of any appropriation contained in this
             Act shall be available for any activity or the
             publication or distribution of literature that
             in any way tends to promote public support or
             opposition to any legislative proposal on
             which congressional action is not complete.

This provision forbids the activities engaged in by Pinon Community
School.    Such lobbying costs are unallowable and paying for
lobbying services with federal funds, is contrary to law.
                                       For the Regional Solicitor




                               41
                                                          APPENDIX 7

            STATUS OF AUDIT REPORT RECOMMENDATIONS

    Finding/
Recommendation
   Reference               Status            Action Required

  A.1 and B.3      Unresolved.      Provide a response to the revised
                                    recommendations. If concurrence is
                                    indicated, provide an action plan that
                                    includes target dates and titles of
                                    o ffi c i a 1s r e s p o n s i b l e f o r
                                    implementation. If nonconcurrence is
                                    indicated, provide reasons for the
                                    nonconcurrence.

  A.2 and B.1      Resolved; not    No further response to the Office of
                   implemented.     Inspector General is required. The
                                    recommendations will be referred to
                                    the Assistant Secretary for Policy,
                                    Management and Budget for tracking
                                    of implementation.

      B.2          Implemented.     No further response is required.

      B.4          Unresolved.      Reconsider the recommendation. If
                                    concurrence is indicated, provide an
                                    action plan that includes the target
                                    date and the title of the official
                                    responsible for implementation. If
                                    nonconcurrence is indicated, provide
                                    the reasons for nonconcurrence.
                ILLEGAL OR WASTEFUL ACTIVITIES
                    SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY:


Sending written documents to:                                   Calling:


                     Within the Continental United States


U.S. Department of the Interior                          Our 24-hour
Office of Inspector General                              Telephone HOTLINE
P.O. Box 1593                                            1-800-424-5081 or
Arlington, Virginia 22210                                (703) 235-9399

                                                         TDD for the hearing impaired
                                                         (703) 235-9403 or
                                                         1-800-354-0996


                     Outside the Continental United States

                                    Caribbean Area


U.S. Department of the Interior                          (809) 774-8300
Office of Inspector General
Caribbean Region
Federal Building & Courthouse
Veterans Drive, Room 207
St. Thomas. Virgin Islands 00802


                                  North Pacific Region

U.S. Department of the Interior                          (700) 550-7279 or
Office of Inspector General                              COMM 9-011-671-472-7279
North Pacific Region
238 Archbishop F.C. F1ores Street
Suite 807, PDN Building
Agana, Guam 96910
